I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

R A M S E Y, F R E D E RI C O
P etiti o n er
vs.

N o:

2 0- 7 4 3 7

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
M ar c h 1 7, 2 0 2 1
c c:
F R E D E RI C O R A M S E Y
P RI S O N E R I D # 1 2 0 7 0- 0 3 1
M E DI C A L C E N T E R F O R F E D E R A L
P RI S O N E R S
P O B O X 4000
S P RI N G FI E L D, M O 6 5 8 0 1

